No. 19-352

Sun the Supreme Court of the Anited States

Robin Brindle, Kathleen Brown, Sandra Carter,
Marcie LaPorte, and Kelvin Ramirez,
Petitioners,

v.

Delta Airlines, Inc., and the Rhode Island
Department of Labor and Training,
Respondents.

On Petition for a Writ of Certiorari
to the Rhode Island Supreme Court

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief for
Petitioners in the above-entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the
text and 10 point for the footnotes, and that the Reply Brief contains 1,754 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

2

Stuart Banner

UCLA School of Law
405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counsel for Petitioners

Executed on December 4, 2019.
